TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Interim Results of the 2012 Filing Season



                                          March 30, 2012

                              Reference Number: 2012-40-036




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


INTERIM RESULTS OF THE 2012 FILING                       The IRS has improved its processing of
SEASON                                                   Homebuyer Credit installment repayments;
                                                         however, some were still not processed
                                                         accurately. TIGTA also found that some paid
Highlights                                               tax return preparers are not complying with
                                                         Earned Income Tax Credit due diligence
Final Report issued on March 30, 2012                    requirements. Furthermore, as of March 3,
                                                         2012, the IRS has identified 441,462 tax returns
Highlights of Reference Number: 2012-40-036              with $2.7 billion claimed in fraudulent refunds
to the IRS Commissioner for the Wage and                 and prevented the issuance of $2.6 billion
Investment Division.                                     (97 percent) of those fraudulent refunds. The
                                                         IRS also selected 134,509 tax returns filed by
IMPACT ON TAXPAYERS                                      prisoners for fraud screening, representing a
                                                         112 percent increase compared to last filing
The filing season, defined as the period from            season.
January 1 through mid-April, is critical for the
IRS because it is during this time that most             As a result of budget constraints, the IRS
individuals file their income tax returns and            expects to be able to serve fewer taxpayers at
contact the IRS if they have questions about             its walk-in offices, called Taxpayer Assistance
specific tax laws or filing procedures.                  Centers, and answer fewer taxpayer telephone
                                                         calls. The IRS anticipates it will have increased
WHY TIGTA DID THE AUDIT                                  wait times, earlier cutoffs of assistance to avoid
In the 2012 Filing Season, the IRS continues to          end-of-day overtime, and frequent unexpected
migrate the electronic filing (e-filing) of individual   closures of small Taxpayer Assistance Centers
tax returns to the Modernized e-File (MeF)               due to unscheduled employee absences. Tax
system. The IRS is also moving forward with its          return preparation will only be provided on a
Customer Account Data Engine 2                           limited number of days per week and only on a
implementation. The IRS is beginning to post             first come, first served basis.
data to the Master File daily rather than once a         The IRS is also planning on providing only a
week. The objective of this review was to                61 percent Level of Service on its toll-free lines.
provide selected information related to the IRS          As of March 3, 2012, IRS assistors have
2012 Filing Season results.                              answered 7.4 million calls and have achieved a
                                                         66 percent Level of Service and a 975 second
WHAT TIGTA FOUND
                                                         (16.3 minutes) Average Speed of Answer.
As of March 3, 2012, the IRS received more than
                                                         Finally, during visits to Volunteer Program sites
63 million tax returns: 57 million (90 percent)
                                                         as of March 3, 2012, TIGTA has had nine tax
were e-filed and nearly 6.3 million (10 percent)
                                                         returns prepared with a 44 percent accuracy
were filed on paper. The IRS has issued nearly
                                                         rate. This is lower than the 60 percent accuracy
52.4 million tax refunds totaling approximately
                                                         rate we reported during the same time period for
$157.6 billion.
                                                         the 2011 Filing Season.
Taxpayers who e-filed their tax returns early in
the 2012 Filing Season experienced delays in             WHAT TIGTA RECOMMENDED
receiving their tax refunds. The IRS indicated           This report was prepared to provide interim
that it had experienced problems with its filters        information only. Therefore, no
established to identify fraud and with the               recommendations were made in the report.
program used by the MeF system to create
output files using the accepted e-file tax return
data format that other IRS systems need to
continue with the processing of the tax return.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 30, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Interim Results of the 2012 Filing Season (Audit
                             # 201240009)

 This report presents selected information related to the Internal Revenue Service’s (IRS)
 2012 Filing Season results. As part of our Fiscal Year 2012 Annual Audit Plan, we are
 conducting a number of ongoing audits that are related to specific issues in this report. We will
 continue to provide IRS management with information on any areas of immediate concern
 throughout our audit process.
 This report was prepared to provide interim information only. Therefore, we made no
 recommendations in the report. However, we provided IRS management officials with an
 advance copy of this report for review and comment prior to issuance.
 Copies of this report are also being sent to the IRS managers affected by the report information.
 Please contact me at (202) 622-6510 if you have questions or Michael McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Programs), at (202) 622-5916.
                                         Interim Results of the 2012 Filing Season




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Processing Tax Returns................................................................................. Page 5
          The Internal Revenue Service Continues to Improve on Its Detection
          and Prevention of Fraudulent Tax Refunds .................................................. Page 11
          Providing Customer Service ......................................................................... Page 13

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 23
          Appendix III – Report Distribution List ....................................................... Page 24
          Appendix IV – Glossary of Terms ................................................................ Page 25
                       Interim Results of the 2012 Filing Season




                             Abbreviations

CADE 2                Customer Account Data Engine 2
e-file(d); e-filing   Electronically file(d); electronic filing
EITC                  Earned Income Tax Credit
IRS                   Internal Revenue Service
MeF                   Modernized e-File
TIGTA                 Treasury Inspector General for Tax Administration
                                    Interim Results of the 2012 Filing Season




                                             Background

The filing season1 is critical for the Internal Revenue Service (IRS) because it is during this time
that most individuals file their income tax returns and contact the IRS if they have questions
about specific tax laws or filing procedures. During Calendar Year 2012, the IRS expects to
receive 144 million individual income tax returns.
The IRS estimates that it will process 30 million paper
and 114 million electronically filed (e-filed) tax returns The IRS expects to receive
                                                            144 million individual tax
and provide customer service assistance via telephone,       returns, which includes
website, and face-to-face assistance to millions of          114 million (79 percent)
taxpayers. The IRS is processing individual income              e-filed tax returns.
tax returns at five Wage and Investment Division
Submission Processing sites during the 2012 Filing
Season: Fresno, California; Andover, Massachusetts; Kansas City, Missouri; Philadelphia,
Pennsylvania; and Austin, Texas.2
One of the challenges the IRS confronts each year in processing tax returns is the
implementation of new tax law changes. Before the filing season begins, the IRS must identify
new tax law and administrative changes and, when possible, revise the various tax forms,
instructions, and publications. It must also reprogram its computer systems to ensure tax returns
are accurately processed. Problems with tax return processing could delay tax refunds, affect the
accuracy of tax accounts, and result in the generation of incorrect notices.

Tax law provisions impacting the 2012 Filing Season
   The Worker, Homeownership, and Business Assistance Act 3 – Enacted on
    November 6, 2009, this act modified the First-Time Homebuyer Credit4 to allow the credit
    for homes purchased through May 1, 2011, and for closings through July 1, 2011, only to
    members of the uniformed services, the Foreign Service, and the intelligence community.
   The Tax Relief and Job Creation Act of 2010 5 – Enacted on December 22, 2010, this act
    extended the Nonbusiness Energy Property Credit6 one year through December 31, 2011, and
    also reduced the aggregate credit for purchases after December 31, 2005, down to $500 from

1
  See Appendix IV for a Glossary of Terms.
2
  Andover, Massachusetts, and Philadelphia, Pennsylvania, process e-filed tax returns only.
3
  Pub. L. No. 111-092, 123 Stat. 2984 (2009).
4
  Internal Revenue Code §36(h)(3).
5
  Pub. L. No. 111-312, 124 Stat. 3296 (2010).
6
  Internal Revenue Code § 25C.
                                                                                              Page 1
                                   Interim Results of the 2012 Filing Season




    $1500. The Nonbusiness Energy Property Credit allows a credit to individuals who
    purchase for their personal residence certain exterior windows (including skylights),
    exterior doors, and metal or asphalt roofs. The Joint Committee on Taxation estimates that
    the extension of this provision will cost $477 million in Fiscal Year 2012.
   The United States-Korea Free Trade Agreement Implementation Act 7 – Enacted on
    October 21, 2011, this act amended Internal Revenue Code § 6695(g) to increase the penalty
    from $100 to $500 on paid tax return preparers who fail to comply with Earned Income Tax
    Credit (EITC) due diligence requirements.
   The Emergency Economic Stabilization Act of 2008 8 – Enacted on October 3, 2008, this act
    established cost basis-related reporting requirements for individual investors and brokers.
    Brokers and other intermediaries must report their clients’ adjusted cost basis on
    Form 1099-B, Proceeds From Broker and Barter Exchange Transactions. Investors must
    report the correct cost basis on the Schedule D, Capital Gains and Losses, and Form 8949,
    Sales and Dispositions of Other Capital Assets. There is a three-year phase-in (beginning
    January 1, 2011) for full implementation of the legislation.

IRS-initiated changes impacting the 2012 Filing Season
   The Department of the Treasury and the IRS issued final regulations9 on December 20, 2011,
    in response to concerns over improper EITC payments on tax returns completed by a paid tax
    return preparer. The regulations require tax return preparers to submit a Form 8867, Paid
    Preparer’s Earned Income Credit Checklist, with each Tax Year 2011 tax return claiming the
    EITC.
   In response to several Treasury Inspector General for Tax Administration (TIGTA) reviews10
    of the IRS’s process for identifying erroneous claims for Vehicle Credits, the IRS is now
    requesting that taxpayers supply the 17-digit Vehicle Identification Number on the following
    forms:
    o Form 8834 – Qualified Plug-in Electric and Electric Vehicle Credit.
    o Form 8910 – Alternative Motor Vehicle Credit.
    o Form 8936 – Qualified Plug-in Electric Drive Motor Vehicle Credit.


7
  Pub. L. No. 112-041, 125 Stat. 428 (2011).
8
  Pub. L. No. 110-343, 122 Stat. 3765 (2008)
9
  Treas. Reg. § 1.6695–2
10
   TIGTA, Ref. No. 2011-41-011, Individuals Received Millions of Dollars in Erroneous Plug-in Electric and
Alternative Motor Vehicle Credits (Jan. 2011). TIGTA, Ref. No. 2010-41-128, Verifying Eligibility for Certain
New Tax Benefits Was a Challenge for the 2010 Filing Season (Sept. 2010). TIGTA, Ref. No. 2011-40-128,
The Passage of Late Legislation and Incorrect Computer Programming Delayed Refunds for Some Taxpayers
During the 2011 Filing Season (Sept. 2011).
                                                                                                         Page 2
                                    Interim Results of the 2012 Filing Season




    The IRS added a new line 59b, Homebuyer Credit Repayment, to the Form 1040, U.S.
     Individual Tax Return, to facilitate taxpayer reporting of any required Homebuyer Credit
     installment repayment.11 This alleviates the need for taxpayers to prepare a Form 5405,
     First-Time Homebuyer Credit and Repayment of the Credit, to report their repayment.

The IRS continues to migrate e-filing of individual tax returns to the Modernized
e-File (MeF) system
The MeF system is a modernized, Internet-based e-file platform that is replacing the current
e-filing system. The MeF system provides real-time processing of tax returns that improves
error detection, standardizes business rules, and expedites acknowledgments. The current phase
of the MeF system is Release 7.0, which is the third phase of implementation for the Form 1040.
For the 2012 Filing Season, this final release includes 120 additional individual tax forms and
limited access to forms from Tax Years 2009 and 2010. The current Legacy e-File system is
scheduled to be retired at the end of the 2012 Filing Season.
This report provides selected information relating to the progress of the 2012 Filing Season. We
have a separate audit assessing the IRS’s transition to the MeF system. We plan to issue a
separate report later this fiscal year.

The IRS is implementing the Customer Account Data Engine 2 initiative
The IRS is moving forward with its Customer Account Data Engine 2 (CADE 2) system
implementation, which will result in a single relational database to house all individual taxpayer
accounts in a central data source that will make reporting and retrieval faster and more efficient.
The IRS indicates that the CADE 2 system will result in timelier taxpayer data, increased
analytical data stores, improved/increased tools to more effectively use data for compliance and
customer service, and enhanced data security.
This represents a new way of posting taxpayer data to the Individual Master File (Master File)
for 2012. The IRS is changing from its decades old method of posting tax data once a week to
the ability to post tax data to the Master File daily. Certain transactions that may require
additional review are identified up front and are still only posted once per week. The ability to
post information to the Master File on a daily basis will enable the IRS to provide tax refunds to
taxpayers more quickly.
The interim 2012 Filing Season results are being presented as of either March 3 or March 7,
2012.12 Later this year, we will issue our 2012 Filing Season report. This review was performed

11
   The Housing and Economic Recovery Act of 2008, enacted on July 30, 2008, requires individuals who purchased
a home between April 9 and December 31, 2008, and claimed a Homebuyer Credit to begin repaying the credit on
their Tax Year 2010 tax return. The credit is intended to be repaid over 15 years in equal annual installments each
year.
12
   Results are provided as of either March 3 or March 7, depending on the date the IRS reported the respective data.
                                                                                                            Page 3
                             Interim Results of the 2012 Filing Season




at the Wage and Investment Division Headquarters in Atlanta, Georgia; the Submission
Processing function offices in Cincinnati, Ohio; the Modernization and Information Technology
Services organization Headquarters in Lanham, Maryland; and the Austin, Texas, Submission
Processing Site. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 4
                              Interim Results of the 2012 Filing Season




                                 Results of Review

Processing Tax Returns
Some taxpayers who e-filed their tax returns early in the 2012 Filing Season experienced delays
in receiving their tax refunds. The IRS indicated that it had experienced problems with its filters
established to identify fraud and with the program used by the MeF system to create output files
using the accepted e-file tax return data that other IRS systems need to continue with the
processing of the tax return. Filters established to identify fraud were initially identifying
taxpayers as having indicators of possible fraud, which resulted in the tax return being held for
additional screening. However, the IRS identified that these filters were incorrectly identifying
some taxpayers. The IRS indicated that once they made necessary adjustments to these filters,
the problem was corrected.
The IRS explained that the MeF system
programming problems resulted in the creation of              MeF programming problems
                                                           resulted in tax return processing
incomplete and/or duplicate output files using the         delays for 7.8 million tax returns
accepted e-file data. This then resulted in delays in          early in the filing season.
sending the output files to downstream processing
systems. The programming problems delayed the
processing of approximately 7.8 million tax returns. The majority of these tax returns were
processed through the MeF system from February 2 through 11, 2012. The IRS indicated that all
of these delayed accepted tax returns were sent to downstream systems for processing by
February 18, 2012. In addition, the MeF system programming problems have resulted in
accepted tax return information not always being timely available for use in its customer service
operations, including “Where’s My Refund.” The IRS has informed us that these problems were
addressed and processes were established to account for all tax returns accepted via the MeF
system during the time frame the processing problem existed. The IRS noted that it is
developing an end-to-end balancing process to track MeF system tax returns from acceptance to
the posting of the tax return on the Master File.
The IRS received more than 63 million tax returns as of March 3, 2012. Of those, 57 million
(90 percent) were e-filed and nearly 6.3 million (10 percent) were filed on paper (a decrease of
5.8 percent from this time last year). In addition, nearly 52.4 million refunds totaling
approximately $157.6 billion were issued. Figure 1 presents a summary of tax return filing
statistics as of March 3, 2012.




                                                                                            Page 5
                                    Interim Results of the 2012 Filing Season




          Figure 1: Comparative Filing Season Statistics as of March 3, 2012

                                                               2011              2012        %
Cumulative Filing Season Data
                                                              Actual            Actual     Change
Individual Income Tax Returns
Total Returns Received (in thousands)                           60,535            63,357    4.7%
    Paper Returns Received (in thousands)                        6,672             6,284    -5.8%
    E-Filed Returns Received (in thousands)                     53,863            57,073    6.0%
      Practitioner Prepared                                     32,686            33,355    2.0%
      Home Computer                                             21,182            23,718   12.0%
      Free File (also included in Home Computer total)           1,782             1,738    -2.5%
      Fillable Forms (also included in Home Computer total)        178               210     18%
Refunds
 Total Number Issued (in thousands)                             52,564            52,399    -0.3%
 Total $ (in millions)                                        $161,345         $157,590     -2.3%
 Average $                                                      $3,070            $3,007    -2.1%
 Total Number of Direct Deposits (in thousands)                 45,357            46,265    2.0%
 Total Direct Deposit $ (in millions)                         $145,972         $144,970    -0.69%
Source: IRS 2012 Weekly Filing Season Reports. Totals and percentages shown are rounded.

The e-filing rate is higher and use of home computers is increasing; however, use
of the Free File Program continues to decrease
More than 100 million taxpayers e-filed their individual income tax returns last year. Since the
1990 Filing Season, taxpayers have e-filed nearly 1 billion individual income tax returns. As of
March 3, 2012, e-file volumes are 6 percent higher than the volumes for the same period in 2011.
The largest increase over last year (12 percent) is from individuals e-filing their tax returns from
home computers. In Calendar Year 2011, the percentage of e-filed tax returns increased to
77 percent of the total individual income tax returns received. The IRS anticipates that e-filing
of tax returns will continue to grow. The total e-file volumes are projected to increase in
Calendar Year 2012 by about 3.7 percent (4 million).
In addition, for the fourth year, the IRS and its partners are offering Free File Fillable Tax Forms,
which opens up the Free File Program to nearly everyone, with no income limitations. More
individuals are taking advantage of this filing option. Use of Fillable Forms has increased to
approximately 210,000, an increase of 18 percent from 2011. However, participation in the Free
File Program continues to decrease by 1.3 percent when compared to the same period in 2011.
                                                                                              Page 6
                                  Interim Results of the 2012 Filing Season




The traditional IRS Free File Program is a free Federal online tax preparation and e-filing
program for eligible taxpayers developed through a partnership between the IRS and the Free
File Alliance, LLC (a group of private-sector tax preparation companies). The program enables
eligible taxpayers to use commercial tax software for free, accessible only through the IRS’s
website, IRS.gov.

Participation in the MeF system is growing; however, after problems occurred,
the IRS encouraged transmitters to use the Legacy e-file system
Participation in the MeF system for individual tax returns is growing. However, on February 10,
2012, the IRS encouraged transmitters to use the Legacy e-file system while the 7.8 million
delayed returns were being processed through the MeF system. In November 2011, the IRS
announced that all tax return transmitters who filed 1 million or more individual tax returns13
during the 2011 Filing Season must submit tax returns through the MeF system for the
2012 Filing Season. As a result, the number of tax return transmitters and States that are e-filing
individual tax returns through the MeF system has increased significantly. Figure 2 provides a
comparison of the number of transmitters and States participating in the MeF system during the
2011 and 2012 Filing Seasons for individual tax returns.
     Figure 2: Comparison of MeF System Transmitters Through March 7, 2012

Number of Transmitters                                          201114             2012           % Change
Total Return Transmitters                                          45                 72              60%
Return Transmitters Participating in MeF
      Return Transmitters                                          20                 38              90%
      States                                                       25                 34              36%
Source: TIGTA analysis of 2012 MeF system transmitter statistics through March 7, 2012.

As of March 7, 2012, the IRS had received over 52 million individual tax returns through the
MeF system. This represents a 499 percent increase over the total number of tax returns
(8,696,783) the IRS received through this system during the 2011 Filing Season. Figure 3 below
provides a comparison of the volume of individual tax returns transmitted as of March 7, 2012,
to the total number of tax returns transmitted during the 2011 Filing Season.




13
   Form 1040 includes entire 1040 form family and Form 4868, Application for Automatic Extension of Time to File
U.S. Individual Income Tax Return.
14
   Data for the 2011 Filing Season is through April 18, 2011.
                                                                                                         Page 7
                                      Interim Results of the 2012 Filing Season




                   Figure 3: Comparison of MeF System Tax Return Volumes

                                                                                2012
                                                                   15
                                                                               Through
Number of Returns Processed                                2011              March 7, 2012   % Change
Total Number Received (in thousands)                        8,697               52,092         499%
          Number Accepted (in thousands)                    7,603               45,516         499%
          Number Rejected (in thousands)                    1,094                 6,575        501%
Source: TIGTA analyses of filing season return volumes through March 7, 2012.

However, the MeF system programming problems resulted in the IRS issuing an alert on
February 10, 2012, to transmitters encouraging the transmitters to once again use the Legacy
e-file system rather than the MeF system. The alert stated that some issues had been discovered
with MeF system data interfaces to downstream processing systems but that the issues had been
resolved. However, the alert encouraged transmitters to continue to use the Legacy e-file system
until further notice. As of March 13, 2012, the IRS is still allowing transmitters to use either the
Legacy e-file system or the MeF system. Figure 4 below provides a comparison of tax returns
accepted through the MeF system from the start of filing season on January 17 through
March 7, 2012, to the Legacy e-file system. The problems encountered this year indicate there
may be significant risk if the IRS continues with its plan to retire its Legacy e-file system at the
end of the year because then it would no longer be available as a backup.
                 Figure 4: Comparison of Tax Returns Accepted Daily
          Through the MeF and Legacy e-file Systems January 17–March 7, 2012




      Source: TIGTA analyses of filing season return volumes through March 7, 2012.

15
     Data from the 2011 Filing Season is through April 18, 2011.
                                                                                                  Page 8
                              Interim Results of the 2012 Filing Season




We plan to continue our evaluation of the IRS’s implementation of the MeF system, and we will
issue a separate audit report on the results.

The CADE 2 system enables posting taxpayer data to the Individual Master File
on a daily basis
The IRS is also moving forward with its CADE 2 system implementation, which is a new way of
posting taxpayer data to the Individual Master File. For this filing season, the IRS changed from
its decades old method of posting data once a week to posting data to the Master File daily. The
ability to post information to the Master File daily will enable IRS to provide refunds to
taxpayers more quickly.
Prior to this filing season, the IRS went through an extensive process to identify those tax
account transactions that could be processed on a daily basis. This undertaking took more than
two years for a team of IRS personnel to analyze the various tax account transactions. The
accuracy of this process is essential to ensure that tax returns which require time for IRS
employee review are not processed daily. Transactions that require additional IRS review during
tax return processing do not qualify for daily processing and, once these tax returns are
identified, the processing time frame is extended. For example, tax returns identified as having
fraud potential are not processed daily. Extending the processing time frame prevents the
issuance of a potentially fraudulent tax refund by providing time for an IRS employee to review
the tax return. We plan to continue our evaluation of the IRS’s implementation of daily tax
processing, and we will issue a separate audit report on the results.

Processing of Homebuyer Credit installment repayments has improved, but some
continue to be inaccurately processed
The IRS continues to develop processes and procedures to assist individuals with the First-Time
Homebuyer Credit repayment requirements. Individuals who purchased a home between April 9
and December 31, 2008, and claimed the credit were required to repay the credit in installments
beginning with their Tax Year 2010 tax return. To assist these individuals, the IRS developed an
online web tool that enables individuals to check the amount of their repayment obligation. As
of March 7, 2012, a total of 535,344 taxpayers reported Homebuyer Credit repayments totaling
more than $175 million.
However, the IRS is still experiencing difficulties in processing the repayments received from
some taxpayers. This is resulting in erroneous refunds of repayments. The total amount either
refunded erroneously or not assessed was more than $1.6 million—over 4,100 tax returns
reporting either the required installment repayment amount or more than the required installment
repayment amount had over $1.6 million of the repayments erroneously refunded.
The IRS developed a process to identify taxpayers who do not report the required Homebuyer
Credit installment repayment amount as an additional tax on their tax return. The IRS
established an amount field on its computer systems that is the amount the IRS expects the
                                                                                          Page 9
                              Interim Results of the 2012 Filing Season




taxpayer to report on either line 59b of Form 1040 or on Form 5405. When tax returns are filed,
the IRS matches the amount reported as an additional tax on the tax return to the expected
amount. If a discrepancy exists, the tax return is sent to the IRS’s Error Resolution System
function for resolution. However, we identified that the IRS’s Homebuyer Credit repayment
computation program is not always identifying the correct amount that the taxpayer is required to
repay.
We notified the IRS of this issue on February 21, 2012, and recommended changes be made to
ensure that Homebuyer Credit installment repayments are correctly assessed. The IRS
responded that three separate issues were associated with the erroneous refunding of Homebuyer
Credit repayments. Extracts will be analyzed to identify affected taxpayers and to correct the tax
returns. The specific issues causing the erroneous refunding of repayments include:
   Information regarding the amount of the Homebuyer Credit repayment owed was not always
    correctly populating for MeF-filed tax returns. The IRS is extracting data to identify
    taxpayers whose repayments were erroneously refunded and plans to contact these taxpayers
    to notify them that a repayment should be made to the IRS.
   Information included on the Homebuyer Credit Entity Section incorrectly showed some
    taxpayers as not having a repayment requirement. When a taxpayer sends in a repayment
    amount and IRS records show them as not having a repayment obligation, the amount repaid
    is refunded to the taxpayer. However, for these cases, the taxpayer actually had a repayment
    requirement. Procedures have been changed alerting tax examiners to fully research tax
    accounts for which a repayment is made but IRS records show no repayment is due.
   Tax examiners processed Homebuyer Credit repayments in error if individuals repaid more
    than required. In those cases, the excess amount was erroneously refunded. Guidance was
    updated on how to handle repayments in excess of the amount owed.

Some paid tax return preparers are not complying with EITC due diligence
requirements
New tax return preparer due diligence requirements were put in place to promote accurate filing
of EITC claims. Currently, between 21 and 26 percent of EITC claims have errors. However,
despite extensive efforts on the part of the IRS to communicate new EITC due diligence
requirements, not all paid tax return preparers are complying with this requirement. As of
March 8, 2012, the IRS identified that of 11.7 million tax returns prepared by paid tax return
preparers with EITC claims totaling $32 billion, over 260,000 tax returns (2 percent) totaling
almost $790.2 million were submitted without the required Form 8867.
We notified the IRS of this issue on December 21, 2011. The IRS responded that for
professionally prepared income tax returns claiming the EITC for Tax Year 2011, ***2(f)****



                                                                                          Page 10
                                Interim Results of the 2012 Filing Season




*********************************2(f)*****************************************
********************************2(f)*************************************, the
preparers of those tax returns without the requisite Form 8867 will receive ****2(f)*********
*************************************2(f)************************************
************************************2(f)********* penalty*************2(f)*******
**********2(f)*************.

Individuals have increased the use of the savings bond and split refund options
Beginning with the 2010 Filing Season, individuals have the ability to use their tax refunds to
purchase up to $5,000 in U.S. Series I Savings Bonds by requesting them on their tax return.
Individuals may request any portion of their tax refund that is an exact multiple of $50 be used to
purchase up to 3 savings bonds for themselves or other persons by simply filling out the
Form 8888, Allocation of Refund (Including Savings Bond Purchases). Through March 7, 2012,
a total of 26,238 individuals requested to convert tax refunds totaling more than $8.8 million into
savings bonds. This represents almost a 60 percent increase over the same period last filing
season.
In addition, individuals can still elect to have their Federal income tax refunds split and
electronically deposited in up to three accounts (e.g., checking, savings, or Individual Retirement
Arrangement) and may have up to three different U.S. financial institutions, including banks,
brokerage firms, or credit unions. Form 8888 must also be prepared for this option. As of
March 7, 2012, a total of 662,983 individuals chose to split tax refunds totaling more than
$2.9 billion between two or three different checking and savings accounts. The number of
individuals using the split refund option increased over 26 percent compared to the same period
in 2011.

The Internal Revenue Service Continues to Improve on Its Detection
and Prevention of Fraudulent Tax Refunds
Unscrupulous individuals continue to submit tax returns with false income documents to the IRS
for the sole purpose of receiving a fraudulent refund. As of March 3, 2012, the IRS had
identified tax returns with $2.7 billion claimed in fraudulent refunds and prevented the issuance
of $2.6 billion (97 percent) of the fraudulent refunds. This represents a 29 percent increase in the
number of tax returns identified as of the same period last processing year.
Figure 5 shows the number of fraudulent tax returns identified by the IRS for Processing
Years 2009 through 2011, as well as the refund amounts that were claimed and stopped.




16
     ************************2(f)***************************************************.
                                                                                            Page 11
                                   Interim Results of the 2012 Filing Season




                    Figure 5: Fraudulent Returns and Refunds Identified
                        and Stopped in Processing Years 2009–2011
                     Number of                                          Amount of
                     Fraudulent               Number of                 Fraudulent             Amount of
     Processing    Refund Returns         Fraudulent Refund               Refunds              Fraudulent
        Year          Identified           Returns Stopped               Identified         Refunds Stopped
       2009             457,369                   369,257             $2,988,945,590           $2,517,094,116
       2010             971,511                   881,303             $7,300,996,194           $6,931,931,314
      2011           2,176,657                   1,756,242          $16,186,395,218          $14,353,795,007
 Source: IRS fraudulent return statistics for Processing Years 2009–2011.

Individual tax returns are sent through the IRS’s Electronic Fraud Detection System and receive
a data-mining score based on the characteristics of the tax return and other data. For those tax
returns meeting a certain score, the tax return is sent to an IRS tax examiner to screen the tax
return for fraud potential. If a tax return is selected for further verification, the tax refund is held
until employers or third parties are contacted to verify wage information on the tax return. If the
verification process is not completed within a certain time period, the tax refund is automatically
released. In general, if the employee concludes that a tax return contains false information
(e.g., false or inflated wages), the tax return is either resolved in the Accounts Management
function or referred to one of the Examination functions17 for resolution. Tax returns with
refundable credits, such as the EITC, and tax returns for which the refunds were issued must be
sent to the Wage and Investment Division’s Examination function because the law requires the
IRS to follow deficiency procedures before making an assessment in these cases.

Screening of prisoner tax returns continues to increase
In a prior TIGTA review assessing the IRS fraudulent tax return screening process,18 we reported
that the majority of tax returns identified as being filed by prisoners are not sent to a tax
examiner for screening to assess the potential that the tax return is fraudulent. As of
March 3, 2012, the IRS had selected 134,509 tax returns filed by prisoners for screening. This
represents a 111.8 percent increase in the number of prisoner tax returns identified as of the same
period last processing year. Figure 6 shows a comparison of the number of tax returns filed by
prisoners that were sent to a tax examiner for screening as of the first week in March for
Processing Years 2010, 2011, and 2012.


17
   According to the referral procedures, fraudulent refund returns are forwarded to either the Wage and Investment
Division Examination function or the Small Business/Self-Employed Division Examination function. The majority
of fraudulent refund returns are forwarded to the Examination function in the Wage and Investment Division. For
purposes of this report, we use “Examination functions” unless we refer to a specific Division.
18
   TIGTA, Ref. No. 2010-40-129, Expanded Access to Wage and Withholding Information Can Improve
Identification of Fraudulent Tax Returns (Sept. 2010).
                                                                                                         Page 12
                                   Interim Results of the 2012 Filing Season




                            Figure 6: Prisoner Tax Returns Identified
                         for Screening in the 2010–2012 Filing Seasons
                                 (as of the first week in March)
                                         Number of Prisoner
                    Processing          Tax Returns Identified              Increase From
                       Year                 for Screening                     Prior Year
                        2010                        33,691

                        2011                        63,501                         88%
                         2012                     134,509                       111.8%
                Source: IRS fraudulent return statistics for Processing Years 2010–2012 as of the
                 first week in March.


Providing Customer Service
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers and Volunteer Program sites, and self-assistance through IRS.gov.

Face-to-face assistance at the Taxpayer Assistance Centers
The Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both
account and tax law questions, as well as receive assistance in preparing their tax returns. The
IRS plans to assist more than 6.1 million taxpayers in Fiscal Year 2012. During Fiscal
Year 2011, the Taxpayer Assistance Centers served 6.4 million taxpayers, which includes
2.8 million taxpayers during the 2011 Filing Season. According to the IRS, as of March 3, 2012,
75 percent of the taxpayers who waited to speak to assistors at the 398 Taxpayer Assistance
Centers19 that track wait time waited fewer than 30 minutes.
Figure 7 shows the number of contacts by product line at the Taxpayer Assistance Centers for
Fiscal Years 2009 through 2012.




19
  Currently all 398 Taxpayer Assistance Centers are tracking wait time, but data for nine Centers was not available
as of March 3, 2012. Tracking begins when the taxpayer is provided a ticket inside the Taxpayer Assistance Center
and does not include the time a taxpayer may wait outside a Taxpayer Assistance Center.
                                                                                                          Page 13
                                     Interim Results of the 2012 Filing Season




                Figure 7: Contacts for Fiscal Years 2009–2012 (in millions)

                                                                      Fiscal Year
          Contacts/Product Lines
                                                                                                 2012
                                                   2009           2010           2011         Projections
          Tax Accounts Contacts                     3.2            3.5            3.7            3.6
          Forms Contacts                            0.8            0.7             .6              .6
                           20
          Other Contacts                            1.5            1.5            1.5            1.7
          Tax Law Contacts                          0.3            0.3             .3              .2
                                    21
          Tax Returns Prepared                      0.4            0.4             .3

          Totals                                    6.2            6.4            6.4            6.1
         Source: IRS management information reports.

In Fiscal Year 2007, the IRS implemented a standardized quality measurement system to
measure the quality of taxpayer service at its Taxpayer Assistance Centers. Fiscal Year 2007
was the baseline year. As shown in Figure 8, the accuracy rates are above 75 percent.
                    Figure 8: Accuracy Rates for Fiscal Years 2009–2012
                    100%

                     95%                           91%              91%                 91%
                     90%           87%
                                                                                        83%
                     85%                           81%              82%
                     80%
                                   75%
                     75%

                     70%

                     65%
                                Fiscal Year    Fiscal Year       Fiscal Year      Fiscal Year
                                   2009           2010              2011             2012*
                                                Tax Law        Tax Accounts


                   Source: IRS management information reports. *=Projected.



20
   Other Contacts includes Form 2063, U.S. Departing Alien Income Tax Statement; date-stamping tax returns
brought in by taxpayers; screening taxpayers for eligibility of service; scheduling return preparation appointments;
and helping taxpayers with general information such as addresses and directions to other IRS offices or other
Federal Government agencies.
21
   In Fiscal Year 2012, Tax Returns Prepared are included in Other Contacts.
                                                                                                            Page 14
                                   Interim Results of the 2012 Filing Season




As a result of budget constraints, the IRS expects that it will have increased wait times, earlier
cutoffs of assistance to avoid end-of-day overtime, and frequent unexpected closures of small
Taxpayer Assistance Centers due to unscheduled employee absences. Face-to-face assistance
will be available to taxpayers who need help with inquiries, adjustments, letters, and notices and
also for payment plans for those who owe taxes and cannot pay in full.
However, tax returns preparation will only be provided on a limited number of days per week
and only on a first come, first served basis. Appointments will not be available. The IRS hopes
this will allow it to still provide tax return preparation to the many taxpayers who need it, but not
to the detriment of other taxpayers with tax law and account issues. The IRS will direct
taxpayers and employees to alternative services for tax return preparation, such as Volunteer
Income Tax Assistance, Free File, and Fillable Forms.
The IRS will also not provide extended hours for the Centers during the 2012 Filing Season. It
had planned to extend hours of operation in approximately 47 Taxpayer Assistance Centers—
before 8:30 a.m. and after 4:30 p.m. during the week and on some Saturdays. However, with
budget cuts and continuing staffing shortages, Taxpayer Assistance Center hours were not
extended.

Toll-free telephone assistance
Despite other options available to taxpayers, many taxpayers choose to use the telephone to
contact the IRS. More taxpayers are calling the IRS’s toll-free telephone lines every year. As of
March 3, 2012, approximately 60.9 million taxpayers contacted the IRS by calling the various
Customer Account Services function toll-free telephone assistance lines22 seeking help in
understanding the tax law and meeting their tax obligations.23 As of March 3, 2012, IRS
assistors have answered 7.4 million calls and have achieved a 66 percent Level of Service and a
975 second (16.3 minutes) Average Speed of Answer.
A reduction in funding for toll-free telephone and correspondence services resulted in a Level of
Service goal for Fiscal Year 2012 of 61 percent, compared to 70 percent the IRS achieved in
Fiscal Year 2011. The last year the IRS provided a Level of Service over 80 percent was Fiscal
Year 2007. This decrease translates to longer customer wait times, increased customer
abandons, and an increased number of customers redialing the IRS toll-free lines for service.
In August 2011, the TIGTA reported that increased call demand and limited resources continue
to adversely affect the toll-free telephone level of service.24 In the 2011 Filing Season, the IRS

22
   The IRS refers to the suite of 28 telephone lines to which taxpayers can make calls as “Customer Account
Services Toll-Free.”
23
   Toll-free telephone assistance data presented in this report were taken from available IRS reports through the
week ending March 3, 2012, and comparable periods for prior years.
24
   TIGTA, Ref. No. 2011-40-087, Increased Call Demand and Limited Resources Continue to Adversely Affect the
Toll-Free Telephone Level of Service (Aug. 2011).
                                                                                                         Page 15
                                  Interim Results of the 2012 Filing Season




received 48 percent more calls than during the 2007 Filing Season. Taxpayers waited on average
10 minutes to speak to an assistor, a 137 percent increase since the 2007 Filing Season.
Nevertheless, the IRS has reduced the operating hours for its main toll-free help line,
(800) 829-1040, from 7:00 a.m. to 10:00 p.m. local time to 7:00 a.m. to 7:00 p.m. local time.
Over the same period from the 2007 to the 2011 Filing Season, the IRS’s ability to process
taxpayer correspondence in a timely manner also declined. Assistors who answer the toll-free
telephone lines also handle taxpayer correspondence (including processing amended returns and
identity theft cases). During the filing season, when call demand is usually at its highest, more
resources are shifted to the telephones to answer calls, and correspondence and adjustment
inventory processing is placed on hold until call demand subsides. As call volumes have
increased and assistors have been moved to answer telephone calls, paper correspondence
inventories have substantially increased. The correspondence inventory rose from approximately
480,000 at the end of Fiscal Year 2007 to more than 628,000 at the end of Fiscal Year 2010. As
of March 3, 2012, 123.2 percent of Fiscal Year 2011 receipts were closed, for an inventory of
816,905.

Tax preparation assistance at Volunteer Program sites
The Volunteer Program25 plays an increasingly important role in the IRS’s efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
disabled, and limited-English-proficient taxpayers. These taxpayers are frequently involved in
complex family situations that make it difficult to correctly understand and apply tax law.
We plan to visit 39 Volunteer Income Tax Assistance and Tax Counseling for the Elderly sites to
determine if taxpayers receive quality service, including accurate preparation of their individual
income tax returns. We developed scenarios designed to test quality controls and training the
volunteers received in preparation for the 2012 Filing Season.
As of March 3, 2012, we had nine tax returns prepared with a 44 percent accuracy rate, which is
lower than the 60 percent accuracy rate we reported during the same time period for the
2011 Filing Season. We plan to report our final results in September 2012. Figure 9 presents
comparisons of Volunteer Program activities for the 2009 through 2012 Filing Seasons.




25
  The Volunteer Program is comprised of the Volunteer Income Tax Assistance Program, including the Volunteer
Income Tax Assistance Grant Program, and the Tax Counseling for the Elderly Program.
                                                                                                     Page 16
                                  Interim Results of the 2012 Filing Season




                               Figure 9: Year-to-Date Comparisons
                                of the 2009–2012 Filing Seasons26

                                          2009 Actual     2010 Actual     2011 Actual     2012 Actual

        Volunteer Return Preparation
                                           1,526,658       1,491,053       1,500,143       1,565,409
        (in millions)
        Volunteer E-Filing                   97.9%           98.5%           98.7%           99.3%
       Source: IRS 2009 through 2012 Filing Season Weekly Reports .

The IRS continues to use the Quality Statistical Sample cadre to measure the quality of tax
returns prepared by the Volunteer Program. The cadre reviewers initiated a statistically valid
sample of Volunteer Program sites, the results of which formed a benchmark of
volunteer-prepared tax return accuracy for the 2009 Filing Season. The approach required that
reviewers at each site review randomly selected tax returns and compared the return information
with supporting documentation, including end-of-year earnings statements and information the
taxpayer provided the volunteer during the mandated intake and screening process. Each year,
the combined results of all the return review visits are considered the formal measure of
Volunteer Program-prepared tax returns. For the 2011 Filing Season, the cadre reviews
concluded that 87 percent of the tax returns prepared by volunteers were accurate.

Self-assistance through IRS.gov and social media
The IRS is committed to helping taxpayers obtain the information they need to help them comply
with the tax law. The IRS is offering more self-assistance options that taxpayers can access
24 hours a day, seven days a week.
Foremost is the IRS’s public Internet site, IRS.gov. As of February 25, 2012, the IRS had
                                reported a 35.7 percent increase in the number of visits to
                                IRS.gov over the same period in the prior filing season. It had
                                also reported a 92.4 percent increase in the number of taxpayers
                                obtaining their refund information online via the “Where’s My
                                Refund” option found on IRS.gov. Figure 10 shows the
year-to-date comparisons of various IRS.gov activity levels for the 2009 through 2012 Filing
Seasons. The significant increase in the use of “Where’s My Refund” in 2012 may be due to the
problems with IRS filters and the MeF system that caused delays early in the filing season.




26
 The 2009 Filing Season is through the week ending March 7, the 2010 Filing Season is through the week ending
March 6, the 2011 Filing Seasons is through the week ending March 5, and the 2012 Filing Season is through the
week ending March 3.
                                                                                                       Page 17
                                  Interim Results of the 2012 Filing Season




                         Figure 10: Year-to-Date Comparisons of the
                                 2009–2011 Filing Seasons27

                                   2009 Actual        2010 Actual         2011 Actual      2012 Actual

      IRS.gov Visits              116,774,933         109,663,929        119,793,481       157,791,422
      “Where’s My Refund?”         33,506,728          37,217,050          43,309,204       80,937,643
     Source: IRS 2009 through 2012 Filing Season Weekly Reports .

The IRS also uses social media platforms and tools to share the latest information on tax
changes, initiatives, products, and services. The IRS uses five different types of social media
outlets and one mobile application, IRS2Go:
     1. IRS2Go. “IRS2Go” is a smartphone application that allows taxpayers to check the status
        of their tax refund and obtain helpful tax information on certain mobile devices. The IRS
        first offered its “IRS2Go” app in January 2011 and in Calendar Year 2011 had more than
        350,000 downloads. This year, IRS2Go includes
        six tools.
           Get Your Refund Status. Taxpayers can
            check the status of their Federal income tax
            refund.
           Get Tax Updates. Taxpayers can use
            IRS2Go to subscribe to filing season tax
            updates by entering their e-mail address to
            automatically get daily tax tips, issued daily
            during the tax filing season and periodically during the rest of the year.
           Follow The IRS. Taxpayers can use IRS2Go to sign up to follow the IRS Twitter
            news feed, @IRSnews.
           Watch The IRS. IRS2Go delivers video from the IRS YouTube channel to the
            mobile device.
           Get The Latest News. IRS news is available via IRS2Go as soon as it is released to
            the public.
           Get My Tax Record. Taxpayers can request their tax return or account transcript
            using their mobile device.

27
 The 2009 Filing Season is through the week ending March 7; the 2010 Filing Season is through the week ending
March 6, the 2011 Filing Seasons is through the week ending March 5, and the 2012 Filing Season is through the
week ending March 3.
                                                                                                       Page 18
                          Interim Results of the 2012 Filing Season




2. YouTube. The IRS publishes informational videos in English, multilingual, and
   American Sign Language on various tax administration topics beneficial to taxpayers.
3. Twitter. IRS tweets include tax-related announcements, news for tax professionals, and
   updates for job seekers.
4. Podcasts. The IRS creates audio files for use in podcasts. These short audio recordings
   provide useful information on one tax related topic. These files are also available as
   podcasts on iTunes and through the Multimedia Center on IRS.gov as downloadable
   audio files (along with their transcripts).
5. Widgets. Widgets are tools that can be placed on websites, blogs, or social media
   networks to direct others to IRS.gov for information. The IRS has developed a variety of
   widgets that feature the latest tax initiatives and programs.
6. Really Simple Syndication (RSS). RSS is a way to get the news whenever it is updated
   through a family of web feed formats used to publish frequently updated works. RSS
   allows taxpayers and practitioners a way to gather a wide variety of content in one place
   on their computers, even if they are not on IRS.gov.




                                                                                     Page 19
                                   Interim Results of the 2012 Filing Season




                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide selected information related to the IRS
2012 Filing Season1 results as of March 7, 2012. To accomplish our objective, we:
I.      Determined the volumes of individual tax returns the IRS is expecting to receive during
        the 2011 Filing Season by obtaining and reviewing Document 6187, Calendar Year
        Projections of Individual Returns by Major Processing Categories, Fall 2011 Update,
        produced by the IRS Office of Research.
II.     Identified volumes of paper and e-filed returns received through March 3, 2012, from the
        IRS Weekly Filing Season Reports that provide a year-to-date comparison of scheduled
        return receipts to actual return receipts. The reports also provide a comparison to 2011
        receipts for the same time period.
III.    Determined the interim results of the implementation of MeF Release 7.0 for individual
        tax returns.
        A. Identified volumes of tax returns transmitted to and accepted by the MeF system for
           processing using the IRS Daily E-File Reports that provide a year-to-date comparison
           of accepted and transmitted tax returns.
        B. Identified the volume of tax returns rejected by the MeF system using the Daily MeF
           Error Codes Report to monitor reject volumes.
IV.     Identified the interim results of CADE 2 daily tax return processing by evaluating the
        IRS’s planning process for the identification of items that could not be processed daily.
V.      Determined whether the IRS correctly implemented new tax legislation that affected the
        processing of individual tax returns during the 2012 Filing Season. We used computer
        analysis of 100 percent of the Tax Year 2011 individual income tax returns processed
        nationally on the Individual Return Transaction File between January 1 and
        March 7, 2012,2 to identify returns affected by recent tax legislation and determined
        whether they were processed correctly. We electronically identified:


1
 See Appendix IV for a Glossary of Terms.
2
 To assess the reliability of computer-processed data, programmers in the TIGTA Strategic Data Services Division
validated the data that were extracted and we verified the data with appropriate documentation. Judgmental samples
were selected and reviewed to ensure that the amounts presented were supported by external sources. As
appropriate, data in the selected data records were compared to the physical tax returns to verify that the amounts
were supported.
                                                                                                          Page 20
                                 Interim Results of the 2012 Filing Season




        A. 535,344 individuals making installment payments on Form 5405, First-Time
           Homebuyer Credit, through March 7, 2012.
        B. 11,804,408 individuals claiming the Earned Income Tax Credit on Form 1040, U.S.
           Individual Income Tax Return, that were prepared by a tax return preparer.
VI.     Identified the interim results for the Wage and Investment Division’s Accounts
        Management function fraudulent tax return statistics.
        A. Obtained the Refund Integrity and Correspondence Services Total Fraudulent
           Revenue Protected – Refund Fraud Report as of March 3, 2012, to identify the
           interim IRS fraudulent tax return statistics for the 2012 Filing Season.
        B. Obtained the Refund Integrity and Correspondence Services Report for Processing
           Year 2011 to obtain IRS fraudulent tax return statistics and determine the number of
           erroneous refunds identified and stopped for Processing Years 2009 through 2011.
VII.    Identified interim results for the IRS Taxpayer Assistance Center Program.
        A. Obtained from the IRS Field Assistance Office statistics on taxpayers served at the
           Taxpayer Assistance Centers.
        B. Reviewed the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various Taxpayer Assistance Center activity levels for the 2009
           through 2012 Filing Seasons.
VIII.   Identified interim results for the IRS Toll-Free Telephone Assistance Program by
        reviewing Performance Templates and Executive Level Summary reports from the
        Enterprise Telephone Data Warehouse for results as of March 3, 2012.
IX.     Identified interim results for the Volunteer Program by reviewing interim results from
        TIGTA visits to Volunteer Program sites. A total of nine tax returns had been prepared
        as of March 3, 2012.3
X.      Identified interim results for IRS self-assistance through IRS.gov from the IRS Weekly
        Filing Season Report of IRS.gov activity levels for the 2010 and 2011 Filing Seasons,
        through March 3, 2012.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following

3
 TIGTA, Audit Number 201240002, Quality of Services at Volunteer Program Sites During the 2012 Filing Season
– Follow-Up.
                                                                                                   Page 21
                             Interim Results of the 2012 Filing Season




internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the 2012 Filing Season. We also evaluated the
controls that are incorporated directly into computer applications to help ensure the validity,
completeness, accuracy, and confidentiality of transactions and data during application
processing of tax returns for the 2012 Filing Season




                                                                                        Page 22
                            Interim Results of the 2012 Filing Season




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Russell Martin, Director
Deann Baiza, Audit Manager
Wilma Figueroa, Audit Manager
Paula Johnson, Audit Manager
Kathleen Hughes, Acting Audit Manager
Sharon Buford, Senior Auditor
John Hawkins, Senior Auditor
Sharla Robinson, Senior Auditor
Lawrence Smith, Senior Auditor
Jean Bell, Auditor
Ed Carr, Audit Evaluator
Linna Hung, Auditor
Jack Laney, Audit Evaluator
Jonathan Lloyd, Auditor
Kim McMenamin, Audit Evaluator
Michele Cove, Information Technology Specialist
Brian Hatterly, Information Technology Specialist
Steven Vandigriff, Information Technology Specialist




                                                                                    Page 23
                            Interim Results of the 2012 Filing Season




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI
Deputy Inspector General for Inspections and Evaluations IG:IE




                                                                                     Page 24
                        Interim Results of the 2012 Filing Season




                                                                              Appendix IV

                           Glossary of Terms

American               A partially refundable Federal tax credit to help parents and
Opportunity Tax        college students offset the costs of college.
Credit
Average Speed of       The average number of seconds taxpayers waited in the assistor
Answer                 queue (on hold) before receiving services.
Blocked Call           A telephone call that cannot be connected immediately because
                       either no circuit is available at the time the call arrives (i.e., the
                       taxpayer receives a busy signal) or the queue is backed up beyond
                       a defined threshold (i.e., the taxpayer receives a recorded
                       announcement to call back at a later time).
Earned Income Tax      A refundable Federal tax credit for low-income working
Credit                 individuals and families.
Electronic Fraud       An automated system used to maximize fraud detection at the time
Detection System       tax returns are filed to eliminate the issuance of questionable
                       refunds.
Enterprise Telephone   The official source for all data related to toll-free telephone system
Data Warehouse         measures and indicators.
Facilitated            Facilitated Self-Assistance is an initiative to provide self-help
Self-Assistance        assistance kiosks at Taxpayer Assistance Centers. The kiosks can
                       be used by taxpayers to access IRS.gov to file their tax returns,
                       print tax forms and publications, or conduct tax research.
Filing Season          The period from January 1 through mid-April when most
                       individual income tax returns are filed.
Fiscal Year            A 12-consecutive-month period ending on the last day of any
                       month, except December. The Federal Government’s fiscal year
                       begins on October 1 and ends on September 30.
Free File Program      A free Federal tax preparation and electronic filing program for
                       eligible taxpayers developed through a partnership between the
                       IRS and the Free File Alliance, LLC. The Alliance is a group of
                       private-sector tax software companies.

                                                                                        Page 25
                       Interim Results of the 2012 Filing Season




Individual Master     The IRS database that maintains transactions or records of
File                  individual tax accounts.
Individual Return     Contains all edited, transcribed, and error-corrected data from the
Transaction File      Form 1040, U.S. Individual Tax Return, series and related forms
                      for the current processing year and two prior years.
Level of Service      The primary measure of service to taxpayers. It is the relative
                      success rate of taxpayers who call for live assistance on the IRS
                      toll-free telephone lines.
Processing Year       Calendar year in which the return or document is processed by the
                      IRS.
Questionable Refund   A nationwide, multifunctional program designed to detect and stop
Program               fraudulent claims for refunds on income tax returns.
Submission            The data processing arm of the IRS. The sites process paper and
Processing Site       electronic submissions, correct errors, and forward data to the
                      Computing Centers for analysis and posting to taxpayer accounts.
Tax Year              The 12-month period for which tax is calculated. For most
                      individual taxpayers, the tax year is synonymous with the calendar
                      year.
Taxpayer Assistance   Walk-in sites where taxpayers can obtain answers to both account
Centers               and tax law questions, as well as receive assistance in preparing
                      their tax returns.
Volunteer Program     Includes the Volunteer Income Tax Assistance Program, including
                      the Volunteer Income Tax Assistance Grant Program, and the Tax
                      Counseling for the Elderly Program. The Volunteer Program
                      provides free tax assistance to persons with low to moderate
                      income (generally $50,000 and below), the elderly, persons with
                      disabilities, and persons with limited-English proficiency.




                                                                                    Page 26
